      SENSITIVE BUT UNCLASSIFIED




Audit Report




OIG-10-045

FOREIGN ASSETS CONTROL: OFAC Should Have Better and
More Timely Documented its Review of Potential Sanctions
Violations

September 1, 2010
This report was originally designated as sensitive but
unclassified. Subsequently, it was determined that this
designation is unnecessary, and it has been removed.


Office of
Inspector General
Department of the Treasury

      SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

Contents



Audit Report.................................................................................................. 1

    Results in Brief ...............................................................................................2

    Background ................................................................................................. 7

    Findings and Recommendations .....................................................................11

        OFAC Did Not Appropriately Document Its Participation in FRB-NY’s
        Fedwire Integrity Pilot Program ................................................................ 11

        OFAC Needs to Determine, in Consultation with Treasury’s Office of
        Intelligence and Analysis, the Appropriate Sensitivity Level of the Program ..... 19

    Recommendations ....................................................................................... 23

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ......................................               28
    Appendix     2:      Management Response .........................................................           30
    Appendix     3:      Major Contributors to This Report ...........................................           34
    Appendix     4:      Report Distribution ................................................................    35


Abbreviations

    FRB-NY                    Federal Reserve Bank of New York
    OFAC                      Office of Foreign Assets Control
    OIG                       Office of Inspector General
    SBU                       Sensitive But Unclassified
    SDN                       Specially Designated Nationals and Blocked Persons




                         OFAC Should Have Better and More Timely Documented its Review                        Page i
                         of Potential Sanctions Violations (OIG-10-045)


                                    SENSITIVE BUT UNCLASSIFIED
         SENSITIVE BUT UNCLASSIFIED




         This page intentionally left blank




OFAC Should Have Better and More Timely Documented its Review   Page ii
of Potential Sanctions Violations (OIG-10-045)


         SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

                                                                                       Audit
OIG
The Department of the Treasury
                                                                                       Report
Office of Inspector General




                       September 1, 2010

                       Adam J. Szubin, Director
                       Office of Foreign Assets Control

                       This report presents the results of our audit of the Office of Foreign
                       Assets Control (OFAC) participation in the Federal Reserve Bank of
                       New York’s (FRB-NY) Fedwire Integrity Pilot Program.

                       From 2004 through early 2006, FRB-NY periodically compared a
                       sample of names from OFAC’s Specially Designated Nationals and
                       Blocked Persons (SDN) list against a moving history of Fedwire
                       transactions to determine whether depository institutions
                       appropriately blocked transactions involving selected SDNs. 1 FRB-
                       NY conducted searches for 8 samples of 10 SDNs each, selected
                       from a subset of 198 SDNs provided by OFAC. OFAC selected this
                       subset from the thousands of names on the SDN list. 2 FRB-NY’s
                       searches yielded 305 transactions containing a potential match
                       with an entry on the SDN list, with a total value of more than $11
                       million. 3 Although FRB-NY believed its search results confirmed
                       that the overwhelming majority of financial institutions were
                       properly screening for names on the SDN list, it lacked the
                       customer data to make a final determination. Accordingly, FRB-NY
                       provided these results to OFAC through the first quarter of 2006,
                       after which FRB-NY terminated the program. We were first
1
  Specially designated nationals are organizations and individuals, including terrorist organizations,
individual terrorists, and state sponsors of terrorism, that are restricted from doing business with U.S.
companies and individuals. The list is categorized by sanction programs for specific countries, such as
Cuba, Burma, and the Balkans, or by sanction programs for specific activities, such as Global Terrorism
Designation, Specially Designated Narcotics Traffickers, and Nonproliferation of Weapons of Mass
Destruction
2
  As of January 2008, the SDN list totaled 7,363 names—3,731 primary names and 3,632 secondary,
or “also known as,” names.
3
  FRB-NY referred to these potential matches as potential “suspicious activities.” The transactions were
sent to OFAC to determine whether they were positive matches.

                       OFAC Should Have Better and More Timely Documented its Review               Page 1
                       of Potential Sanctions Violations (OIG-10-045)


                                 SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




               informed by OFAC of this program in November 2005 during
               another audit, when OFAC stated that the program provided
               evidence of a high degree of compliance by financial institutions
               with OFAC sanctions.

               Our objectives were to determine (1) how OFAC used the Fedwire
               Integrity Pilot Program results to broadly assess financial
               institutions’ compliance with its sanction programs and (2) whether
               OFAC took enforcement action when a violation was identified
               from the FRB-NY referrals. To accomplish our objectives, we
               interviewed OFAC and FRB-NY officials and reviewed related
               documentation. During our audit, we also noted inconsistent
               markings of documents OFAC considered to be sensitive so we
               address that matter in this report as well. Appendix 1 contains a
               more detailed description of the audit objectives, scope, and
               methodology.

               Issuance of this final report was delayed due to other priority work
               by our office. The other priority work principally relates to an
               unprecedented number of reviews of failed financial institutions
               that we are required to perform under the Federal Deposit
               Insurance Act.


Results in Brief
               Limited OFAC Documentation

               OFAC officials said its analysis of FRB-NY’s potential matches
               confirmed the FRB-NY’s initial conclusions, that the overwhelming
               majority of financial institutions using Fedwire properly screened
               their transactions for compliance with OFAC sanctions. OFAC did
               not, however, provide us with adequate documentation to support
               the activities or analysis it used to reach this conclusion.

               Despite our repeated requests between November 2007 and March
               2008, when we conducted our audit fieldwork, OFAC officials
               could not present to us the criteria used to select the subset of
               SDN names provided to FRB-NY, the analysis applied to the 305

               OFAC Should Have Better and More Timely Documented its Review   Page 2
               of Potential Sanctions Violations (OIG-10-045)


                        SENSITIVE BUT UNCLASSIFIED
         SENSITIVE BUT UNCLASSIFIED




potential suspicious transactions identified by FRB-NY, or the
results of what was done with the potential suspicious transactions
that were identified by the FRB-NY. Furthermore, we also
requested but did not receive OFAC’s written policies and
procedures for reviewing the potential suspicious transactions, for
documenting its analyses and conclusions, or for taking follow-up
action when necessary. Given its limited scope, we believe that
any broad conclusion about screening by financial institutions for
OFAC compliance from just the results of this program is not
prudent.

During our audit fieldwork, OFAC did not provide sufficient,
appropriate evidence of its review of the FRB-NY referrals. At the
exit conference in June 2009, OFAC presented two sets of
documentation regarding its actions on the referrals that we had
not previously been given. The difficulty we encountered in
obtaining the evidence of OFAC’s review earlier in the audit points
to, among other things, a need for OFAC to do a better job of
maintaining proper records of its programs and operations.

•   The first set of documentation was to support an OFAC review
    of the FRB-NY referrals that OFAC officials said was conducted
    in November and December 2007. The evidence presented
    consisted of notes (i.e., sticky notes) dated November 29,
    November 30, and December 12, 2007, that OFAC staff
    attached to copies of the eight e-mail referrals from the FRB-NY.
    The notes indicated OFAC’s determination that the hits did not
    match entities and addresses on the SDN, and thus were false
    hits. OFAC officials said we should have had the original notes
    at the time and could not explain why we did not have them.

    The documentation contained handwritten notations that were
    not on the copies of these documents we were provided on
    November 28 and 29, 2007. We were unable to confirm the
    determinations with the author of the notes, who is no longer a
    federal employee, and thus we are unable to reach a conclusion
    about the nature of the review conducted. The former OFAC



OFAC Should Have Better and More Timely Documented its Review   Page 3
of Potential Sanctions Violations (OIG-10-045)


         SENSITIVE BUT UNCLASSIFIED
         SENSITIVE BUT UNCLASSIFIED




    staff member who made the determinations was unresponsive
    to our request for an interview.

•   The second set of documentation consisted of an OFAC review
    of the FRB-NY referrals that was performed between May and
    June 2009 after we provided OFAC with a discussion draft of
    this report. In this regard, OFAC performed the analysis in
    response to our discussion draft report recommendation to
    investigate the potential suspicious transactions FRB-NY
    provided to OFAC in the years 2004, 2005, and 2006, and
    document the results. While this analysis provides a
    determination about the potential hits, it does not provide
    adequate documentation of OFAC’s review. The author and
    date of the review are not identified. Also, the methodology
    used to perform the review is not described. In short, this
    documentation does not provide an audit trail to adequately
    support the review of the FRB-NY referrals. That said, based on
    the assertions by OFAC senior management and considering the
    documentation provided, although inadequate, we accept that a
    review of the potential hits was performed.

OFAC officials also provided at the exit conference a 2005 internal
e-mail that referenced one of the potential hits. OFAC took
enforcement action in November 2008 for this 2005 violation,
about 3 years after the potential hit had been referred from FRB-NY
and after our fieldwork was completed. The enforcement action
taken was a cautionary letter to the financial institution warning
that another violation would be dealt with more strongly.

Unclear Basis for Marking Documents Sensitive

OFAC officials told us that the Fedwire Integrity Pilot Program
should be treated as sensitive and that public disclosure of the
program would cause harm to the government. However, they
were unable to explain or otherwise provide a defendable basis as
to why they held this belief. FRB-NY considered the program to be
sensitive, but from a business propriety standpoint. Additionally,
we noted that OFAC marked certain related documents as

OFAC Should Have Better and More Timely Documented its Review   Page 4
of Potential Sanctions Violations (OIG-10-045)


         SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED




                      Sensitive But Unclassified (SBU) but did not mark other documents
                      containing the very same information.

                      Recommendations

                      We are recommending that OFAC (1) establish policies and
                      procedures for reviewing referrals of potential violations of OFAC
                      sanctions, to include documenting the research and conclusions
                      derived from its analyses, and actions to be taken based on the
                      identification of potential matches to the SDN list; (2) inform our
                      office of the report’s sensitivity level and specific information that
                      cannot be disclosed; (3) periodically re-assess with FRB-NY
                      whether the Fedwire Integrity Pilot Program should be
                      re-established; (4) determine, in consultation with Treasury’s Office
                      of Intelligence and Analysis, the appropriate sensitivity level of the
                      program based on Treasury Security Manual criteria; and (5) based
                      on that determination, appropriately mark and secure program
                      documentation in accordance with the Treasury Security Manual.

                      Management Response

                      In its response, OFAC referenced, for the purpose of context, an
                      April 2002 audit report issued by our office that emphasized the
                      importance we attributed to the federal banking regulators'
                      examination process in monitoring compliance with OFAC
                      sanctions by financial institutions. In that report, we concluded that
                      transaction testing was a critical component of the examination
                      process. 4 Following the publication of the 2002 audit report,
                      FRB-NY decided to test the integrity of its Fedwire system, as well
                      as compliance by its participants, by screening the details of
                      billions of discrete transactions sent through the Fedwire system by
                      U.S. banks against a sample of names from OFAC's SDN list.




4
  Office of Inspector General, FOREIGN ASSETS CONTROL: OFAC's Ability To Monitor Financial
Institution Compliance Is Limited Due To Legislative Impairments (Report OIG-02-082; issued April 26,
2002)


                      OFAC Should Have Better and More Timely Documented its Review              Page 5
                      of Potential Sanctions Violations (OIG-10-045)


                                SENSITIVE BUT UNCLASSIFIED
         SENSITIVE BUT UNCLASSIFIED




OFAC noted that in August 2004, FRB-NY tested four and a half
years worth of archived transaction history, covering some
450,000 wire transfers each day totaling almost six billion discrete
transactions, against a sampling of OFAC targets. In transmitting
the results, FRB-NY told OFAC that it believed that its search
results confirmed that the majority of financial institutions that use
the Fedwire system were properly screening for names on the SDN
list. In October 2004, FRB-NY conducted the same test using
different SDN names. It reached exactly the same conclusion—that
the majority of financial institutions that use Fedwire were properly
screening for names on OFAC's SDN list. The exercise was
repeated 8 times with substantially similar findings resulting in the
same FRB-NY conclusion.

In 7 of the 8 tests that FRB-NY conducted, it identified a handful of
potential hits which it referred to OFAC. OFAC was able to
determine that all but one of those potential matches were either
false hits or authorized by a general or specific license issued by
OFAC. There was only one item that required an enforcement
action against a bank in the form of a cautionary letter. While
documentation of its actions could have been better, OFAC
believes that its policies and procedures worked and all action that
needed to be taken was taken. OFAC believes that the program
was an effective tool in measuring compliance with U.S. sanctions
regulations by the U.S. financial community and will assess with
FRR-NY whether to re-establish Fedwire Integrity.

With respect to our first recommendation above, OFAC stated that
assessing potential matches to the SDN list is a vital function for
OFAC, both internally and in its outreach and compliance functions.
OFAC has detailed procedures for reviewing inquiries about
potential SDN matches which are on its Web site. Using these
criteria, OFAC said it determined very quickly that the great
majority of transactions transmitted by FRB-NY were either false
positives or were authorized by OFAC. OFAC believes that it is of
no value to log referred questions that are quickly resolved as false
hits, but instead it carefully documents authenticated hits that are
blocked or rejected. These are entered into OFAC’s database of

OFAC Should Have Better and More Timely Documented its Review    Page 6
of Potential Sanctions Violations (OIG-10-045)


         SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




             blocked and rejected transactions and reviewed for involvement of
             any U.S. persons. Individual case files are created for potential
             violations of U.S. sanctions law and referred for enforcement
             action as appropriate.

             The underlying program has been properly determined to be SBU
             pursuant to the Treasury Security Manual and staff involved in this
             project have been notified about the proper marking and handling
             of documents related to the program. Furthermore, OFAC stated
             that it will reassess with FRB-NY whether the Fedwire Integrity
             Program should be re-established.

             OIG Comment

             With respect to its response to our first recommendation, the
             process described by OFAC for reviewing inquiries and
             documenting its review is a reasonable approach, and meets the
             intent of our recommendation. That said, however, its response
             was less than complete as to what actions will be specifically
             taken to address the documentation weaknesses we found during
             our audit. This is an area that requires continued management
             attention in our opinion. In recognition of the fact that OFAC is the
             responsible office for program information, we accept OFAC’s final
             determination that this report should be designated SBU. With
             respect to its response that it will reassess with FRB-NY whether
             the Fedwire Integrity Program should be re-established, OFAC will
             need to establish and record a planned date for the assessment in
             the Department’s Joint Audit Management Enterprise System
             (JAMES).

             OFAC’s response is provided in appendix 2.

Background
             OFAC Sanction Programs and the SDN List

             OFAC administers laws that impose economic sanctions against
             hostile targets to further U.S. foreign policy and national security

             OFAC Should Have Better and More Timely Documented its Review    Page 7
             of Potential Sanctions Violations (OIG-10-045)


                      SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED




                      objectives. In carrying out its functions, OFAC maintains a list of
                      SDNs containing the names of individuals and entities owned or
                      controlled by, or acting for or on behalf of, the governments of
                      target countries or that are associated with international narcotics
                      trafficking or terrorism or engaged in activities related to the
                      proliferation of weapons of mass destruction. Unless authorized by
                      OFAC, all U.S. persons, including U.S. banks, bank holding
                      companies, and nonbank subsidiaries are prohibited from dealing
                      with individuals and entities on the SDN list. Unless authorized by
                      OFAC, banks must block all property and interest in property within
                      their possession or control in which these individuals and entities
                      have an interest.

                      The federal banking agencies examine financial institutions under
                      their supervision to determine the adequacy of the financial
                      institutions’ OFAC compliance programs. 5 It is a violation of law
                      if the institution does business with a targeted entity or fails to
                      block an unauthorized transaction involving an SDN.

                      When it comes to OFAC’s attention that an illicit transaction has
                      been processed through a U.S. bank without being appropriately
                      blocked or rejected, OFAC normally sends an administrative
                      demand for information to the bank requesting an explanation of
                      how the transaction was processed. OFAC has also imposed
                      millions of dollars in civil penalties on U.S. banks and companies
                      for failing to appropriately block or reject illicit transfers involving
                      a targeted country or SDN. OFAC completed 99 penalties or
                      settlements totaling a little over $3.5 million in 2008 while
                      completing 27 penalties or settlements totaling a little over $772
                      million in 2009. The large dollar increase in 2009 was the result
                      of substantial settlements with two institutions.




5
 The federal banking agencies are the Office of the Comptroller of the Currency, Office of Thrift
Supervision, Board of Governors of the Federal Reserve System, Federal Deposit Insurance Corporation,
and the National Credit Union Administration.

                      OFAC Should Have Better and More Timely Documented its Review            Page 8
                      of Potential Sanctions Violations (OIG-10-045)


                                SENSITIVE BUT UNCLASSIFIED
           SENSITIVE BUT UNCLASSIFIED




FRB-NY Fedwire System

The Federal Reserve System, among other things, serves as the
banker for the U.S. government and operates the Fedwire system.
Fedwire is an electronic funds transfer network operated by the
FRB-NY. It is usually used to transfer large amounts of funds and
U.S. government securities from one institution's account at a
Federal Reserve Bank to another institution's account. It is also
used by Treasury and other federal agencies to collect and disburse
funds. FRB-NY’s Fedwire system consists of a set of computer
applications that route and settle payment orders and is supported
by a national communications network. The following diagram
depicts the process:

Figure 1: The Fedwire Process
                 Acknowledgement                       Advice of Credit
                                      Fedwire                            Bank B
                                                                      (Fedwire Bank)
                     Transaction
                                       Funds
       Bank A        Data             Service
    (Fedwire Bank)

                                Federal Reserve Account

                                   Bank A     Bank B
                                    -$$        + $$

     Originator                                                      Beneficiary
     (Bank A’s customer)                                             (Bank B’s customer)
Source: OIG adaptation of a chart provided by FRB-NY.
Note:   Transaction data includes, among other things, information about the
        sender, dollar amount of the transaction, receiving bank, and recipient’s
        account number and address.

Any institution that maintains an account with a Federal Reserve
Bank generally can become a Fedwire participant. Participants use
Fedwire to instruct a Federal Reserve Bank to debit funds from the
participant's own Federal Reserve Bank account and credit the
Federal Reserve Bank account of another participant. Fedwire
processes and settles payment orders individually throughout the

OFAC Should Have Better and More Timely Documented its Review                 Page 9
of Potential Sanctions Violations (OIG-10-045)


           SENSITIVE BUT UNCLASSIFIED
         SENSITIVE BUT UNCLASSIFIED




operating day. Payment to the receiving participant over Fedwire is
final and irrevocable when the amount of the payment order is
credited to the receiving participant's account or when the
payment order is sent to the receiving participant, whichever is
earlier. Fedwire participants send payment orders to a Federal
Reserve Bank online, by initiating an electronic message, or offline,
via telephone.

Screening of Fedwire Transactions for OFAC Compliance

FRB-NY does not screen electronic Fedwire transactions for OFAC
compliance as the transactions are processed. In a September
1995 letter, OFAC advised FRB-NY that FRB-NY did not need to
institute a review of Fedwire electronic transactions between
domestic banks. According to OFAC such a review was redundant
because U.S. depository institutions that clear electronic domestic
transactions through Fedwire were presumably already scanning
transactions, both domestic and international, for interests of
entities and individuals subject to the blocking provision of OFAC
programs.

Fedwire Integrity Pilot Program

Beginning in June 2004 and continuing through March 2006, FRB-
NY periodically compared a sample of 10 names from a subset of
the SDN list provided by OFAC against a historical database of
transactions that had been processed through Fedwire. The OFAC-
provided subset consisted of 198 SDNs. In total 80 names were
sampled. FRB-NY compared the sample of SDNs against a 4-year
moving history of transactions in the Fedwire database. The
comparison included checks of all aliases, related names,
addresses, and all variations associated with the sampled SDNs.
According to FRB-NY officials, after each search, the sampled
SDNs were excluded from future searches.




OFAC Should Have Better and More Timely Documented its Review   Page 10
of Potential Sanctions Violations (OIG-10-045)


         SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED




                      For any matches that were identified, FRB-NY eliminated all
                      apparent false positives 6 and matches for transactions that
                      occurred before the individual or entity was designated an SDN.
                      FRB-NY then sent all remaining potential matches by e-mail to
                      OFAC. OFAC was to determine whether any of the names
                      appeared to be actual SDN matches. OFAC officials said that then
                      they decide whether to perform additional testing on transactions
                      that appear to be matches or to issue an administrative subpoena
                      to the banks involved asking for additional information about the
                      transaction and the parties involved.

                      FRB-NY provided OFAC with information about the transactions
                      containing the potential matches to verify that parties involved
                      were true matches and to determine if the transactions were in fact
                      violations of OFAC regulations. FRB-NY officials explained that
                      FRB-NY sent the list of potential matches to OFAC because, unlike
                      OFAC, it did not have the authority to request the bank customer
                      information that may have been necessary to verify whether it was
                      a true match. In addition, according to OFAC officials FRB-NY did
                      not have the expertise in OFAC regulations to determine, even if it
                      was a true match, if the transaction was authorized under OFAC
                      regulations.

Findings and Recommendations
Finding 1             OFAC Did Not Appropriately Document Its Participation in
                      FRB-NY’s Fedwire Integrity Pilot Program
                      OFAC was unable to provide certain key documentation or explain
                      its actions in connection with the Fedwire Integrity Pilot Program.
                      OFAC officials could not provide us with documentation as to the
                      genesis of OFAC’s participation in the program except for a draft
                      program proposal that FRB-NY prepared to explain the program.
                      That draft proposal bore little resemblance to what was actually


6
  A false positive is a case in which the name in question is the same or similar to an SDN but other
information on the person, such as geographical information, does not match the information on OFAC’s
SDN list.

                      OFAC Should Have Better and More Timely Documented its Review          Page 11
                      of Potential Sanctions Violations (OIG-10-045)


                                SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED




                       done. OFAC also did not document nor could OFAC officials
                       explain how OFAC developed the list of SDNs provided to FRB-NY
                       for use in the pilot program. Throughout our field work and despite
                       our periodic requests, OFAC could not provide documentation as to
                       what it did to resolve the 305 potential “hits” referred to it by FRB-
                       NY. When we asked OFAC officials what was done, they said that
                       there had been high turnover of staff who may have worked on the
                       potential hits. When we asked who the staff were, OFAC officials
                       said they could not recall.

                       At the exit conference on June 5, 2009, OFAC provided (1) copies
                       of documents to support its review and analysis of FRB-NY
                       referrals, in the form of sticky notes written in 2007 on the search
                       results provided by FRB-NY and (2) a 2005 e-mail between OFAC
                       officials that described a transaction that resulted in an
                       enforcement action issued almost 3 years later. These were
                       documents that we had not previously been provided when we
                       were given the documents with sticky notes in November 2007.
                       The additional notations were dated November 29, November 30,
                       and December 12, 2007, and were also not included on the original
                       notes we were given on November 28 and November 29. While it
                       is not clear why these documents with additional notations were
                       given to us so late in the audit, we accept that the notes support
                       that analysis was ultimately performed. 7 Nonetheless, OFAC
                       received the FRB-NY results nearly 3 years earlier beginning in
                       2004 and OFAC officials, who said review and analysis was done
                       when the documents were first received, should have documented
                       the review and analysis performed at that time.




7
  The notes OFAC officials provided were initialed by a former employee, who is no longer a federal
employee. We attempted to interview the individual and exchanged correspondence with the individual
regarding our interview request. Ultimately, however, the individual was unresponsive to our request. It
should be noted that when we asked OFAC officials during our audit fieldwork for the names of staff
involved with activities, they could not recall their names. The first time we learned of the individual’s
name was from the notes provided at the exit conference in June 2009. The individual was still
employed at OFAC at the time of our audit fieldwork.

                       OFAC Should Have Better and More Timely Documented its Review               Page 12
                       of Potential Sanctions Violations (OIG-10-045)


                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




                     OFAC Did Not Document Its Criteria for Selecting Names Provided
                     to FRB-NY

                     In May 2004, OFAC provided FRB-NY with a list of 198 SDNs to
                     search under the Fedwire Integrity Pilot Program. FRB-NY officials
                     told us that they selected 10 names at random from OFAC’s list for
                     the 8 searches conducted under the program for a total of 80
                     names sampled. 8 As noted earlier, the list provided by OFAC was a
                     subset of names selected from the thousands of names on the SDN
                     list.

                     We asked OFAC officials for documentation showing how the
                     subset of names provided to FRB-NY was selected, but they
                     provided no such documentation. An OFAC investigator involved in
                     contributing to the list said that he recalled choosing 41 names
                     that were put on the list. He said that these 41 names were
                     chosen from over 1,500 names that were categorized as narcotics
                     traffickers on the SDN list. None of the OFAC officials we
                     interviewed could explain how the other 157 names were chosen.
                     Two OFAC officials stated that OFAC wanted to make sure that
                     the SDN names provided to FRB-NY officials were relevant and
                     useful for enforcement purposes.

                     In 2006, OFAC provided FRB-NY with another list, this time of 12
                     names from the SDN list. According to an OFAC official, OFAC
                     formulated the 12-name list by choosing names of interest and
                     high-profile individuals from both the Specially Designated
                     Narcotics Traffickers and the nonproliferation of weapons of mass
                     destruction categories. OFAC wanted leads to parties that were
                     dealing with persons or entities on the SDN list in order to identify
                     additional names to add to the list. OFAC officials did not provide
                     any further details about the origin of the 12-name list. According
                     to FRB-NY, this second list was not used to test transactions.




8
 FRB-NY conducted 8 searches. They were conducted in June, August, and October 2004; January
2005; the first, third, and fourth quarters of 2005; and the first quarter of 2006.

                     OFAC Should Have Better and More Timely Documented its Review      Page 13
                     of Potential Sanctions Violations (OIG-10-045)


                              SENSITIVE BUT UNCLASSIFIED
         SENSITIVE BUT UNCLASSIFIED




OFAC Did Not Document Its Activities Related to the Fedwire
Integrity Pilot Program

We asked OFAC officials for documentation to describe the
purpose, legal authority, and resolution of OFAC activities related
to FRB-NY’s Fedwire Integrity Pilot Program. The officials provided
a document marked “draft-confidential” that was prepared by
FRB-NY to describe the program. That document identified two
goals for the program. One was to provide OFAC with historical
information from transactions for SDNs prior to their designation
dates and the second was to provide OFAC with possible violations
by depository institutions that failed to properly filter and block
their transactions.

For the first goal—providing OFAC with historical information from
transactions involving SDNs prior to their designation dates—OFAC
was to review these transactions and provide documentary
evidence of how this was to be done or whether it was done.
Though we were not provided with documentary evidence of
OFAC’s review, OFAC agreed with FRB-NY’s initial conclusion that
financial institutions were compliant with OFAC sanction programs
and that there was a large drop in the number of transactions
involving SDNs once their names were placed on the SDN list.

Regarding the second goal—identifying possible violators of OFAC
sanctions—FRB-NY officials said that they filtered out transactions
conducted prior to an SDN’s designation date, identified the
remaining transactions as potential matches, and provided OFAC
with these potential matches to review. FRB-NY provided OFAC
with these potential matches because FRB-NY officials did not
maintain customer identification files to verify the names and
related locations generated from their searches. OFAC had the
authority to access depository institution information to verify
whether the transactions did indeed involve sanctioned parties, and
if so, whether or not the transactions were processed in violation
of OFAC regulations. FRB-NY provided the results in eight separate
e-mails addressed to an OFAC official, including copies of the
system-generated matches. In all but one instance, OFAC officials

OFAC Should Have Better and More Timely Documented its Review   Page 14
of Potential Sanctions Violations (OIG-10-045)


         SENSITIVE BUT UNCLASSIFIED
         SENSITIVE BUT UNCLASSIFIED




did not believe that these were bona fide violations, but had no
evidence to show what review was conducted to reach their
conclusions. When we asked for documentary support and the
names of OFAC personnel who analyzed these data so we could
ask the analysts what they did to scrutinize the data, OFAC
officials stated that they had no related documentation and could
not identify any other OFAC personnel who may have received and
reviewed these transactions.

Overall, FRB-NY conducted searches for 8 samples, each consisting
of 10 SDNs for a total of 80 SDNs, and provided OFAC with 305
transactions which contained potential matches to the SDN list.
The value of all transaction records referred to OFAC totaled more
than $11 million. FRB-NY documentation showed that the
transactions averaged approximately $37,000, ranging from a low
of about $87 to a high of approximately $459,000.

As shown in table 1, in total, FRB-NY’s searches generated 305
transactions containing potential matches to the SDN list. These
transactions involved potential matches to 16 SDN entities out of
the total of 80 tested.




OFAC Should Have Better and More Timely Documented its Review   Page 15
of Potential Sanctions Violations (OIG-10-045)


         SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED




                      Table 1: Transactions Referred by FRB-NY to OFAC Containing Potential
                               Matches to an SDN


                                        Number of       Exact     Partial
                     Timing of FRB-     transactions    name      name      Different   Unknown      Location
                     NY searches        identified      match     match     location    location     match
                     June 2004                     11                 11                       11
                     August 2004                   68                 68                       68
                     October 2004                  46         4       42          44            2
                     First quarter
                                                   55                 55          49                            6
                     2005
                     Third quarter
                                                   12         1       11          10                            2
                     2005
                     Fourth quarter
                                                   21                 21            9                      12
                     2005
                     First quarter
                                                   92                 92          92
                     2006
                        Total                    305          5     300          204           81          20
                     Source: FRB-NY e-mails submitted to OFAC.

                     Notes: 1. According to a FRB-NY official, a second-quarter 2005 search was not
                               conducted.
                            2. FRB-NY officials stated that 14 of the fourth-quarter 2005 matches were
                               positive SDN hits and that 12 of these entities had exact location matches. In
                               addition, for the entire period reviewed, 5 of the transactions had exact name
                               matches, 1 of which also had an exact location match.

                      After a repeat request for additional information from OFAC as to
                      its disposition of these potential hits, we were provided limited
                      documentation. OFAC provided copies of the FRB-NY e-mails with
                      the search results and copies of the system-generated matches
                      FRB-NY provided to OFAC with the e-mails. Throughout our
                      fieldwork, however, OFAC did not give us documentation to
                      support its review and analysis of these results. At the June 5,
                      2009, exit conference, during which OFAC officials provided
                      comments to the discussion draft report, OFAC officials provided
                      limited documentation that showed OFAC had reviewed the
                      potential hits and concluded that most of the hits were false. 9
                      Only one transaction appeared to constitute a violation of OFAC

9
 In the fourth quarter 2005 FRB-NY search results, 12 matches for one entity were positive hits but
were legal payments licensed by OFAC.

                      OFAC Should Have Better and More Timely Documented its Review                   Page 16
                      of Potential Sanctions Violations (OIG-10-045)


                                 SENSITIVE BUT UNCLASSIFIED
         SENSITIVE BUT UNCLASSIFIED




regulations. The documentation was in the form of sticky notes
attached to the FRB-NY documentation identifying the potential
hits. The determinations of matches to the SDN were handwritten
on the sticky notes and were dated November 29, November 30,
and December 12, 2007. These comments which concluded that
the hits did not match the SDN were not present on the sticky
notes at the time of our field visit to OFAC headquarters on
November 28, 2007, and were not provided when we again
requested all program data near the conclusion of our field work in
March 2008. It should also be noted that these notes do not
support timely review of the potential hits, as they were dated
almost 3 years after OFAC received its results from the FRB-NY’s
search of Fedwire transactions.

In addition, OFAC officials stated that as a direct result of our
discussion draft, they had further prepared in June 2009 a detailed
summary of their analysis of FRB-NY search results. This was also
provided to us at the exit conference. Similar to the first set of
documents provided to us, this was not adequate. We could not
determine, from this documentation, the official who performed the
review, the date the review was performed, or the methodology
used to determine if the potential hits were positive. OFAC did not
provide an audit trail for future reference to this program.

When questioned about the timeliness of their review, OFAC
officials said they acted timely, but did not document their review
and analysis in 2005. They cited as evidence of their review an
enforcement action taken in 2008 for a transaction reviewed in
2005. OFAC officials presented a 2005 e-mail from an OFAC
compliance officer that discussed a review of a transaction
generated from the program. (This was also a document that we
were not provided during our fieldwork.) OFAC officials emphasized
that this was evidence that they reviewed the transactions when
they were received. According to one OFAC official, in March
2006, OFAC received responses from the financial institutions




OFAC Should Have Better and More Timely Documented its Review   Page 17
of Potential Sanctions Violations (OIG-10-045)


         SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED




                       based on information OFAC requested in February 2006, and in
                       November 2008, issued cautionary letters to the institutions. 10

                       During our fieldwork, OFAC compliance officials stated that OFAC
                       did not have an audit trail to show what was done with the results
                       of the program. They said that OFAC had been experiencing heavy
                       employee turnover and that certain officials who may have been
                       able to discuss what was done with the results were no longer
                       with OFAC. We asked for the names of these individuals so that
                       we could follow up with them directly, but the OFAC officials could
                       not recall specific names or the units in which they worked. This
                       remained the case at our June 2009 exit conference.

                       When we asked OFAC officials what policies and procedures they
                       would have followed when FRB-NY reported the potential matches
                       to OFAC, they stated that OFAC did not have any written policies
                       and procedures for performing and documenting its review of
                       potential matches and taking appropriate action based on the
                       results. At the exit conference in June 2009, OFAC provided us
                       with a copy of an excerpt from “Frequently Asked Questions” that
                       is available on the OFAC website. These procedures, however, are
                       for financial institutions to determine the quality of the transactions
                       with matches to OFAC’s SDN list. These procedures do not
                       represent procedures for OFAC officials to use to document the
                       research and conclusions derived from its analyses, or the actions
                       to be taken should actual matches be identified.

                       Additional Concern Regarding OFAC Documentation

                       At the audit exit conference, OFAC officials stated that they
                       continuously and on a daily basis provide guidance to the public on


10
   Cautionary letters are issued when OFAC determines that neither a formal finding of violation nor a
civil penalty is warranted. These letters serve to place the institutions on notice that OFAC is concerned
about the conduct and that any such similar conduct in the future may result in a finding of violation or
imposition of a penalty. In this case, OFAC made its decision based on the institutions’ OFAC violation
history, the volume of transactions processed by the institutions, and other factors as defined in
Economic Sanctions Enforcement Guidelines published in an interim final rule in Federal Register,
Volume 73, Number 174, Monday, September 8, 2008.

                       OFAC Should Have Better and More Timely Documented its Review              Page 18
                       of Potential Sanctions Violations (OIG-10-045)


                                 SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




            potential matches to the SDN list. According to the officials, the
            information provided is assessed and a determination is made
            whether to pursue further inquiry. The officials also stated that
            they do not keep a log of the contacts indicating the disposition of
            each inquiry and cited resources as the reason for not maintaining
            such a log. We believe that OFAC should reconsider this practice
            and establish a log of all inquiries. Among other things, such a log
            provides for a historical record should OFAC later be challenged
            about actions taken on a particular matter referred to its office. It
            also provides an important source of information that might be
            useful to develop cases in the future.

Finding 2   OFAC Needs to Determine, in Consultation with
            Treasury’s Office of Intelligence and Analysis, the
            Appropriate Sensitivity Level of the Program

            From the outset of our audit, OFAC officials told us that the
            Fedwire Integrity Pilot Program was sensitive and that public
            disclosure of it would cause harm to the government because the
            program would be terminated and OFAC’s relationship with the
            Federal Reserve damaged. FRB-NY officials also told us the
            program was sensitive from their perspective. When OFAC first
            informed our office about the program in a November 2005
            memorandum, the memorandum and its attachments were marked
            “Treasury Sensitive But Unclassified.” However, other related
            documentation provided by OFAC lacked any such markings.

            We believe that the reasons cited by OFAC for treating the
            program as sensitive are not compelling. We therefore believe that
            OFAC needs to articulate and document why the SBU designation
            is appropriate.

            When Information Is to Be Marked as SBU

            At Treasury, the SBU designation is used to identify information
            whose release could adversely affect economic, industrial, or
            international financial institutions or compromise unclassified
            programs, Treasury essential operations, or critical infrastructures.

            OFAC Should Have Better and More Timely Documented its Review   Page 19
            of Potential Sanctions Violations (OIG-10-045)


                     SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED




                       Information marked SBU is not meant for public release but is
                       controlled or restricted in conducting official Treasury business.
                       Access to SBU information is based on a determination that an
                       employee or contractor requires access to perform or assist in
                       lawful, authorized, Treasury governmental functions. Other aspects
                       of SBU information include (1) individuals do not need a security
                       clearance to access SBU information and (2) SBU information is not
                       automatically exempt from the provisions of the Freedom of
                       Information Act or the Privacy Act. Responsibilities and
                       requirements related to the proper marking and handling of SBU
                       information are prescribed in the Treasury Security Manual. 11

                       OFAC Marked Certain Fedwire Integrity Pilot Program-Related
                       Records as SBU

                       The first time OFAC informed us about the Fedwire Integrity Pilot
                       Program was in a November 30, 2005, memorandum from a
                       former OFAC director to one of our auditors entitled “Fedwire
                       Integrity Pilot Program.” The memorandum included as attachments
                       a series of e-mails from an FRB-NY official to OFAC summarizing
                       the results of searches under the program. The earliest attached
                       e-mail was dated August 10, 2004, and the latest attached e-mail
                       was dated November 10, 2005. In that memorandum, which was
                       marked along with the attachments as SBU, the former OFAC
                       director stated the following:

                          “I would like to emphasize the exceptional sensitivity of
                          this program, which is being conducted on a voluntary
                          basis. If the existence of the program were to be
                          disclosed, we are confident that the program will be
                          terminated and we will receive no further information.”

                          “In addition, disclosure of the program would likely cause
                          irreparable damage to our productive relationship with the
                          federal financial regulator at issue.”


11
  TD P 15-71, Chapter III, “Information Security,” sections 23 and 24, “Sensitive But Unclassified
(SBU) Information.”

                       OFAC Should Have Better and More Timely Documented its Review            Page 20
                       of Potential Sanctions Violations (OIG-10-045)


                                SENSITIVE BUT UNCLASSIFIED
         SENSITIVE BUT UNCLASSIFIED




The memorandum did not state why OFAC was providing the OIG
auditor with the information. However, the reason given our auditor
by OFAC staff was that the results of the searches performed by
the FRB-NY evidenced a high degree of financial institution
compliance with OFAC requirements.

Reasons Cited for Program’s Sensitivity

We sought to determine the reasons why OFAC considered the
Fedwire Integrity Pilot Program to be sensitive, and the basis for
marking the November 2005 memorandum SBU. We asked several
current and former OFAC officials about the need for secrecy about
the program.

One OFAC official stated that FRB-NY officials requested that the
program be treated as sensitive. Similarly, another OFAC official
stated the FRB-NY officials were very concerned about any
requirement that would weaken their primary mission of timely and
accurate Fedwire data transfer.

The former OFAC Director, who signed the memorandum, said that
a sensitive designation was needed to maintain the integrity of the
financial sector. He also said that FRB-NY officials believed that the
information was sensitive because depository institutions would
question why FRB-NY officials were conducting searches.

We also inquired of FRB-NY officials about their perspective on the
sensitivity of the Fedwire Integrity Pilot Program. The officials
confirmed that they asked OFAC to treat this program as sensitive.
They cited business and proprietary reasons as the basis of their
concern.

Most Program Documents Not Marked SBU

Despite the sensitivity attributed to this program by OFAC, with
the one exception of the November 2005 memorandum to our
auditor, no other documents provided by OFAC during our audit
were marked SBU or otherwise marked as sensitive in accordance

OFAC Should Have Better and More Timely Documented its Review   Page 21
of Potential Sanctions Violations (OIG-10-045)


         SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED




                       with Treasury policy. These included (1) the eight e-mails that were
                       sent from the FRB-NY officials to OFAC officials with the potential
                       suspicious transactions resulting from the program, (2) the
                       computer-generated documents attached to these e-mails that
                       listed the transactions resulting from the search of Fedwire
                       transactions with the SDN listing, and (3) a draft document of the
                       pilot program. 12

                       Conclusion

                       After considering the comments of current and former OFAC
                       officials, we do not see the adverse impact that could result from
                       public disclosure of this program. That FRB-NY voluntarily selected
                       a limited number of names from the SDN list provided by OFAC to
                       identify transactions containing potential matches to the SDN list
                       which were processed through Fedwire for review by OFAC would
                       appear to be nothing more than one more layer of compliance
                       testing of the financial system. In concept, we believe this to be a
                       good idea. What OFAC did with the information provided by FRB-
                       NY is a matter that should be part of the public record, barring any
                       legal restrictions, of which we are aware of none. We also do not
                       see the concerns raised in the former Director’s November 2005
                       memorandum and expressed to us during our audit as compelling
                       reasons for OFAC’s position that the program was very sensitive.

                       However, we do believe it prudent for OFAC to consult with the
                       Office of Intelligence and Analysis to determine whether the
                       characteristics of the program meet the Treasury criteria for
                       designating the program as SBU. 13 In the interest of government
                       accountability and transparency, we also believe it is essential that
                       OFAC maintain a complete record of the basis and parties
                       responsible for making a decision to treat the program as sensitive
12
   As stated earlier, this document was marked “draft-confidential,” which is not a marking that accords
with Treasury policy.
13
   In accordance with Treasury Directive 105-19, the Assistant Secretary for Intelligence and Analysis is
the senior agency official for the Department of the Treasury authorized to delegate original Secret or
Confidential classification authority in conformance with the requirements of Executive Order 12958, as
amended. This order prescribes a uniform system for classifying, safeguarding, and declassifying
national security information, including information relating to defense against transnational terrorism.

                       OFAC Should Have Better and More Timely Documented its Review             Page 22
                       of Potential Sanctions Violations (OIG-10-045)


                                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




           or otherwise shielded from the public. We also feel that programs
           of this nature need to have strong controls in place that carefully
           document all activities and ensure that no abuses take place.


Recommendations
           We recommend the OFAC Director do the following:

           1. Establish policies, procedures, and controls for reviewing
              inquiries about potential matches to the SDN list, to include
              documenting the research and conclusions derived from its
              analyses and actions to be taken based on the identification of
              transactions with actual matches. The policies, procedures, and
              controls should provide for appropriate safeguards to ensure
              compliance with applicable U.S. laws.

              Management Response

              OFAC agreed that assessing potential matches to the SDN list is
              a vital function for OFAC, both internally and in its outreach and
              compliance functions. To that end, OFAC has detailed
              procedures for reviewing inquiries about potential SDN matches.
              These procedures, which are posted on its Website, set out two
              methods to be used in assessing potential matches, one for wire
              transfers and the other for customer accounts. These are the
              same procedures that OFAC uses for purposes of internal
              analysis and for responding to inquiries received each year from
              the private sector about potential matches to the SDN list.
              OFAC's employees are responsible for determining if potential
              matches are likely to be true hits and, in most cases, are able to
              make such determinations with very little time or effort.

              Based on the criteria described above, according to OFAC, it
              was determined very quickly that the great majority of the
              transactions transmitted by FRB-NY were either false positives
              or were authorized by OFAC. The SDN match and OFAC’s
              follow-on actions for the one “true hit” were well documented
              and resulted in a Cautionary Letter to the financial institution

           OFAC Should Have Better and More Timely Documented its Review   Page 23
           of Potential Sanctions Violations (OIG-10-045)


                    SENSITIVE BUT UNCLASSIFIED
         SENSITIVE BUT UNCLASSIFIED




   that handled the payment. With respect to OFAC
   documentation procedures more generally, OFAC does not log
   referred questions that are quickly resolved as false hits, as
   such, because they generally do not provide value to the office.
   On the other hand, OFAC carefully documents authenticated
   hits that are blocked or rejected. These hits are entered into
   OFAC’s database of blocked and rejected transactions and
   reviewed for the involvement of any U.S. persons. Individual
   case files are created for potential violations of U.S. sanctions
   law and are referred for enforcement action as appropriate.

   OIG Comment

   OFAC’s description of its process for reviewing inquiries and
   documenting its review of those inquiries is a reasonable
   approach. Although published for use by the public, we agree
   that the procedures that OFAC has posted on its Website for its
   internal review of potential SDN matches provide sufficient
   guidance for OFAC employees to review these transactions. We
   also understand that documenting every single false hit may not
   be of value to OFAC if the transactions have been reviewed in
   accordance with these procedures and found not to be a
   violation of law. As OFAC officials described during our review,
   OFAC receives a number of inquiries from car dealers and the
   like concerning individuals who may have the same name as a
   person on the SDN list, but based on other information such as
   date of birth or address, it is clear to OFAC that the individual is
   not the same person on the SDN list. It is these types of
   inquiries that are not documented according to OFAC officials.

   Although we consider OFAC’s described approach as
   reasonable, OFAC’s response is less than complete in that it
   does not specifically address the documentation weaknesses
   we found during our audit. In that regard, we want to
   emphasize the importance for OFAC to institutionalize in writing
   its internal policies, procedures, and controls to ensure the
   actions described in its response are in fact done, and
   appropriate documentation is maintained. Such documentation,

OFAC Should Have Better and More Timely Documented its Review   Page 24
of Potential Sanctions Violations (OIG-10-045)


         SENSITIVE BUT UNCLASSIFIED
         SENSITIVE BUT UNCLASSIFIED




   both of the procedures applied and the results, was sorely
   lacking with respect to its activities with the Fedwire Integrity
   Pilot Program at the time of our review. OFAC’s operating
   practices in this regard therefore remains an area of concern
   and is the subject of planned future audit work by our office.

2. Inform our office of this report’s sensitivity level and specific
   information that cannot be disclosed and why. This
   recommendation should be given immediate attention.

   Management Response

   The underlying program has been properly determined to be
   SBU pursuant to the Treasury Security Manual. OFAC does not
   believe that the report, given its singular focus on a sensitive
   program at a unique institution, could be properly redacted to
   prevent the public disclosure of the identity of FRB-NY and the
   actions it took as part of the program.

   OIG Comment

   During our audit, we held extensive discussions with OFAC on
   the sensitivity level of the Fedwire Integrity Program and this
   report. In recognition of the fact that OFAC is the responsible
   office for program information, we accept OFAC’s
   determination that this report should be designated SBU and
   have marked it accordingly.

3. Periodically reassess in conjunction with FRB-NY whether the
   Fedwire Integrity Pilot Program should be re-established.

   Management Response

   OFAC stated that it will reassess with FRB-NY whether the
   program should be re-established.




OFAC Should Have Better and More Timely Documented its Review    Page 25
of Potential Sanctions Violations (OIG-10-045)


         SENSITIVE BUT UNCLASSIFIED
         SENSITIVE BUT UNCLASSIFIED




   OIG Comment

   We consider OFAC’s planned action responsive to our
   recommendation. OFAC will need to establish a timeframe for
   the planned reassessment, and record the date for completing
   action on this recommendation in JAMES.

4. In consultation with the Office of Intelligence and Analysis,
   determine the proper sensitivity level of the Fedwire Integrity
   Pilot Program and maintain written documentation of that
   determination and the basis for it.

   Management Response

   OFAC met with Treasury’s Office of Security Programs to
   determine the sensitivity level of the Fedwire Integrity Pilot
   Program. OFAC was advised that the Program is and had been
   properly deemed SBU pursuant to the Treasury Security Manual
   because the details of the program, if publicly disclosed, could
   have an adverse impact on the operations of FRB-NY and could
   compromise an unclassified program to monitor financial
   institution compliance with national security sanctions programs
   administered by OFAC.

   OIG Comment

   In recognition of the fact that OFAC is the responsible office for
   program information, we accept OFAC’s determination that the
   sensitivity level of the Fedwire Integrity Pilot Program is SBU.

5. As appropriate to the sensitivity level determined in accordance
   with recommendation 4, ensure that all related program records
   at OFAC are marked and secured in accordance with the
   Treasury Security Manual. This applies not only to current
   records but also to records that may be created if the Fedwire
   Integrity Pilot Program is re-established at a future date.




OFAC Should Have Better and More Timely Documented its Review   Page 26
of Potential Sanctions Violations (OIG-10-045)


         SENSITIVE BUT UNCLASSIFIED
         SENSITIVE BUT UNCLASSIFIED




   Management Response

   OFAC notified its staff involved in this project about the proper
   marking and handling of documents related to the program. SBU
   program documentation is and has been secured in accordance
   with the Treasury Security Manual and a September 2008
   memorandum from Treasury’s Office of Security Programs
   Director. This documentation is stored in areas that have
   physical access controls to afford adequate protection to
   prevent unauthorized access by visitors and others without a
   need for such access. Treasury and bureau e-mail systems also
   have sufficient safeguards to transmit SBU information.

   OIG Comment

   OFAC’s notification to its staff is responsive to our
   recommendation. We recognize that OFAC offices are in
   secured facilities. That said, proper markings are essential as
   well to prevent unauthorized or inadvertent disclosure.

                                 * * * * *

We would like to extend our appreciation to OFAC for the
cooperation and courtesies extended to our staff during the audit.
If you have any questions, please contact me at (617) 223-8640 or
Sharon Torosian, Audit Manager, at (617) 223-8642. Major
contributors to this report are listed in appendix 3.




/s/
Donald P. Benson
Audit Director




OFAC Should Have Better and More Timely Documented its Review   Page 27
of Potential Sanctions Violations (OIG-10-045)


         SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

                      Appendix 1
                      Objectives, Scope, and Methodology




                      The objectives of our audit were to determine (1) how the Office of
                      Foreign Assets Control (OFAC) used the results of the Fedwire
                      Integrity Pilot Program to broadly assess financial institutions’
                      compliance with its sanction programs and (2) whether OFAC took
                      enforcement action when a violation was identified from the FRB-
                      NY referrals. Our audit was initiated after we received information
                      during a prior audit about information on transactions containing
                      potential matches to Specially Designated Nationals and Blocked
                      Persons (SDN) which were identified by the Fedwire Integrity Pilot
                      Program. 14 We wanted to determine why the Federal Reserve Bank
                      of New York (FRB-NY) initiated the Fedwire Integrity Pilot Program,
                      what the program’s results showed, and what OFAC did with the
                      results.

                      We reviewed laws, regulations, and guidance associated with
                      OFAC’s sanction programs, consumer privacy, and suspicious
                      activity reporting. We asked OFAC for its policies and procedures
                      related to the Fedwire Integrity Pilot Program and were told there
                      were none. OFAC did provide a draft proposal for the program
                      prepared by the FRB-NY, which we reviewed.

                      We requested documentation from both OFAC and FRB-NY relating
                      to the program, which was conducted from June 2004 through
                      January 2006. We reviewed FRB-NY documentation provided to
                      OFAC for potential matches to the SDN list identified in the eight
                      sets of results for searches that FRB-NY conducted during 2004,
                      2005, and 2006. We asked OFAC for any documentation of
                      follow-up by OFAC; OFAC officials told us that such
                      documentation did not exist.

                      During our fieldwork from November 2007 and March 2008, we
                      did not receive evidence that OFAC reviewed the results of the
                      program or documentation that enforcement actions were taken. It
                      was at the June 2009 exit conference that OFAC officials provided

14
  Foreign Assets Control: Actions Have Been Taken to Better Ensure Financial Institution Compliance
With OFAC Sanction Programs, But Their Effectiveness Cannot Yet Be Determined, OIG-07-048
(Sep. 20, 2007).


                      OFAC Should Have Better and More Timely Documented its Review           Page 28
                      of Potential Sanctions Violations (OIG-10-045)


                                SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED

Appendix 1
Objectives, Scope, and Methodology




documentation in the form of sticky notes with handwritten
comments dated November 29, November 30, and December 12,
2007, concluding that in all but one instance the hits either did not
match the SDN list or were otherwise authorized by OFAC.

A second set of documentation was provided to us in response to
a recommendation in our May 2009 discussion draft report to
investigate the potential matches FRB-NY provided to OFAC in the
years 2004, 2005, and 2006, and document the results. This was
not deemed to be sufficient documentation to provide a historical
record of the program.

We were also told at the exit conference that in 2008 OFAC had
taken an enforcement action based on the results of a Fedwire
Integrity Pilot Program hit that occurred in 2005. The enforcement
action was in the form of cautionary letters to the institutions
warning that another violation would be dealt with more strongly.
OFAC officials provided us with an e-mail to document this action.

We interviewed OFAC officials at their headquarters in Washington,
D.C. We also interviewed FRB-NY officials in New York City. These
interviews were arranged through the Office of Inspector General
of the Board of Governors of the Federal Reserve System. In
addition, we interviewed two former directors of OFAC, other
former OFAC officials, and a former Department of the Treasury
official, all of whom were knowledgeable about the program.
Further, we attempted to interview a former OFAC employee who
OFAC officials told us had analyzed the referrals from FRB-NY in
November and December 2007. We exchanged correspondence
with the individual during July and August 2009 to arrange an
interview but this individual was ultimately unresponsive to our
interview request.

We performed our fieldwork from November 2007 to March 2008
in accordance with generally accepted government auditing
standards.




OFAC Should Have Better and More Timely Documented its Review   Page 29
of Potential Sanctions Violations (OIG-10-045)


          SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED

Appendix 2
Management Response




OFAC Should Have Better and More Timely Documented its Review   Page 30
of Potential Sanctions Violations (OIG-10-045)


          SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED

Appendix 2
Management Response




OFAC Should Have Better and More Timely Documented its Review   Page 31
of Potential Sanctions Violations (OIG-10-045)


          SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED

Appendix 2
Management Response




OFAC Should Have Better and More Timely Documented its Review   Page 32
of Potential Sanctions Violations (OIG-10-045)


          SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED

Appendix 2
Management Response




OFAC Should Have Better and More Timely Documented its Review   Page 33
of Potential Sanctions Violations (OIG-10-045)


          SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED

Appendix 3
Major Contributors To This Report




Sharon Torosian, Audit Manager
Timothy Cargill, Auditor
Nikole Solomon, Auditor
Abdirahman Salah, Referencer




OFAC Should Have Better and More Timely Documented its Review   Page 34
of Potential Sanctions Violations (OIG-10-045)


          SENSITIVE BUT UNCLASSIFIED
           SENSITIVE BUT UNCLASSIFIED

Appendix 4
Report Distribution




Department of the Treasury

Deputy Secretary
Under Secretary for Terrorism and Financial Intelligence
Office of Strategic Planning and Evaluations
Office of Accounting and Internal Control

Office of Foreign Assets Control

Director

Office of Management and Budget

OIG Budget Examiner




OFAC Should Have Better and More Timely Documented its Review   Page 35
of Potential Sanctions Violations (OIG-10-045)


           SENSITIVE BUT UNCLASSIFIED
